filed

°rc 0 8 2020

C73

No.
IN THE
SUPREME COURT OF THE UNITED STATES
LA VERNE KOENIG,
Petitioner
-vs.ANDREW WHEELER, ADMINISTRATOR OF UNITED
STATES ENVIRONMENTAL PROTECTION
AGENCY, ETAL.,
Respondent.
On Petition For Writ Of Certiorari To The
United States Court of Appeals
For The Eighth Circuit
PETITION FOR WRIT OF CERTIORI
LA VERNE KOENIG
Pro Se counsel ofrecord
15520 Hwy 200A SE
Blanchard, North Dakota 58009
(701)430-0096
olecowboy7053@gmail.com
November 30, 2020

(i)

QUESTIONS PRESENTED
Question 1: (A) Does the Federal Rule, [Fed. R. Civ. Pro. Rule 4]
significantly affect the result of a litigation for a Federal Court to
disregard a law of a State that would be controlling in an action
upon the same claims by the same parties in a State Court? (B)
Are the Federal Rules of Civil Procedure, contrary to or
inconsistent with the Rules Enabling Act [28 U.S.C. 1652],
Houston v. Lack. 487 U. S. 266 (1988); Mullane v. Central
Hanover Bank, 339 U. S. 306, 320 (1950), depriving Plaintiffs of
State created rights and privileges contrary to the Erie Railroad
Co. v. Tompkins. 304 U. S. 64 (1938) doctrine; (C) does the Fed.
R. Civ. Pro. Rules 3 and 4 sub silento, overrule the afore­
mentioned Supreme Court decisions, depriving Plaintiffs of
substantive State created rights and privileges in violation' of the
Full Faith and Credit Clause of the U. S. Constitution, Article IV,
Section 1?
Question 2: Whether the U.S. Court of Appeals for the Eighth
Circuit may disregard and totally ignore this Court’s precedent, by
utilizing it’s Rule 47A(a) to dismiss a pro se indigent litigants’
appeal without permitting the litigant the opportunity to present
the issues, present argument and brief the issues, before the Court
renders a decision, violate the Due Process, Equal Protection
Clauses and the First Amendment of the United States
Constitution? (B) Thus violating 28 U.S.C. 1915; 28 U.S.C. 2072
and this Court’s precedent?

(H)
PARTIES TO THE PROCEEDINGS
AND CORPORATE DISCLOSURE STATEMENT
Petitioners La Verne Koenig; Gerald and Sharon Radebaugh, are
private individuals whom own real estate in the State of North
Dakota; and/or other State’s, are not publicly traded enterprises,
have no parent corporation(s), no stocks, and no publicly held
company owns any stock therein, ownership is wholly owned
individually and/or through contract for deed.
RELATED PROCEEDINGS
United States District Court (D. of Columbia):
La Verne Koenig v. Scott Pruitt, Administrator of
Environmental Protection Agency, etal, Civ. No. l-18-cv-01169
United States Court of Appeals, District of Columbia Circuit:
In re La Verne Koenig, No. 18-5183 [Mandamus Petition]
United States District Court, (D. of North Dakota);
La Verne Koenig v. Scott Pruitt, Administrator of
Environmental Protection Agency, et al., Civ. No. 3-18-CV-00102
United States Court of Appeals, Eighth Circuit:
In re La Verne Koenig, No. 19-2014 [Mandamus Petition]
La Verne Koenig v. Andrew Wheeler, Administrator of
Environmental Protection Agency, et al, No. 19-3723

(iii)

TABLE OF CONTENTS
Opinions below.

,vi

Jurisdiction

.vi

Statutory provisions involved.

.vi

Statement.

1

A. Background

1

B. Facts and procedural history

,5

A compelling reason to grant relief.

8

Reasons for granting the petition

15

A. The decision below implicates a recognized disregard
for the precedent of this Supreme Court..........................

.9

B. The decision below is constitutionally flawed

11

C, The questions presented are exceptionally important and
warrants review in this case................................................. 13
Conclusion.

.20

Appendix A,

.22

Appendix B

.24

Appendix C.

.27

Appendix D

.29

(iv)
TABLE OF AUTHORITIES
Cases:
Addington v. Texas, 441 U. S. 418,425 (1979)...................... 14
Bernhard v. Polygraphic Co. ofAmerica, 350 U. S. 198, 203
(1956)....................................................................................... .9
Bruce v. Samuels, 136 U. S. 627,629 (2016).......................... 12
Chambers v. Baltimore & Ohio R.R. Co., 207 U. S. 142,
12,15
148,
12
Coleman v. Tollefson, 135 S. Ct. 1759,1762 (2015)...........
13
Coppedge v. United States, 369 U. S. 438 (1962)................
17
Dunn v. Blumstein, 405 U. S. 330 (1972)............................
.7
Erie Railroad v. Tompkins, 304 U. S. 64 (1938)..................
16
Evitts v. Lucey, 469 U. S. 387 (1985)...................................
16
Faretta v. California, 422 U. S. 806 (1975).........................
15
Foucha v. Lousiana, 504 U. S. 71, 80 (1992).......................
.9
Guaranty Trust Co. v. York, 326 U. S. 99, 108 (1945).........
17
Haines v. Kemer, 404 U. S. 519 (1972)..............................
7
Houston v. Lack, 487 U. S. 266 (1988)................................
18
In re Wickham Corwin, S. CtNo. 20130328 (N.D. 2014)...
Kingdomware Techs. Inc v. United States, 136 S. Ct. 1969,
13
1976(2016)......................................................................
Koenig v. North Dakota, No. 12-2260 (8th Cir. 2014)..........
18
14
Mathews v. Eldridge, 424 U. S . 319, 335 (1976)................
Mullane v. Central Hanover Bank, 339 U. S. 306,
,7
320(1950)........................................................................
12
Neitzke v. Williams, 490 U. S. 319, 324 (1989)...................
13
Norman v. Reed, 502 U. S. 279, 287092 (1992)..................
18
Powell v. Alabama, 287 U. S. 45 (1932)..............................
18
State v. Koenig, 789 N. W. 2d 731 (N.D. 2010).................
17
Strickland v. Washington, 466 U. S. 668 1984)..................
Turner v. Rogers, 564 U. S. 431 (2012)............................... 12, 13
17
United States v. Cronic, 540 U. S. 1 (1984)........................
United States v. Gonzales-Lopez, 548 U. S. 140 (2006)...... 18,19
18
Yarborough v. Gentry, 540 U. S. 1 (2003)..........................

(V)

Wayman v Southard, 23 U. S. (10 Wheat.) 1,46 (1825)
Weeks v. North Dakota Workforce, Safety & Ins Fund
2011 ND 188, 803 N.W. 2d 601.................................
Weinstein v. Bradford, 423 U. S. 147, 149 (1975)........

14
.9
13

U. S. Constitution:
First Amendment
Article I, Section 1................................
Article H, Section 1...............................
Article m, Section 1.............................
Article IV, Section 1 U.S. Constitution

.passim
15
15
15
8

Statutes:
28 U.S.C. 1392(e)(1)
28 U.S.C. 1652.........
28 U.S.C. 1915.........
28 U.S.C 2072.........

13
.passim
..passim
..passim

State Constitution:
North Dakota, Article I, Section 12

16

North Dakota Statute(s):
N.D.C.C. 29-01-06

16

(Vi)

No.
In the Supreme Court of the United States
LA VERNE KOENIG, ET AL., PETITIONERS
v.
ANDREW WHEELER, ADMINISTRATOR OF THE
ENVIRONMENTAL
PROTECTION AGENCY, ET AL.,
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURTFO APPEALS
FOR THE EIGHTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
LA VERNE KOENIG; GERALD AND SHARON
RADEBAUGH,
respectfully petition for a writ of certiorari to review the judgment
of the
United States Court of Appeals for the Eighth Circuit in this case.

(vii)
OPINIONS BELOW
The opinion of the court of appeals (App. D ) was not reported.
The opinion of the district court (App. A ) was not reported.
JURISDICTION
The judgment of the Eighth Circuit Court of Appeals was
entered on July 16,2020. The jurisdiction of this Court is invoked
under 28 U.S. C. 1254(1).
STATUTORY PROVISIONS INVOLVED
Section 1652, of Title 28 of the United States Code provides:
“The laws of the several states, except where the
Constitution or treaties of the United States or Acts of Congress
otherwise require or provide, shall be regarded as rules of decision
in civil actions in the courts of the United States, in cases where
they apply.”
Section 2072, of Title 28 of the United States Code provides:
“(a) The Supreme Court shall have the power to prescribe
general rules of practice and procedure of evidence for cases in
the United States district courts (including proceedings before
magistrate judges thereof) and courts of appeals.
(b) Such rules shall not abridge, enlarge or modify any
substantive right. All laws in conflict with such rules shall be of
no further force or effect after such rules have taken effect.”
[Emphasis added]
Article IV, Section I of the United States Constitution provides:

\

( viii)
“Full Faith and Credit shall be given in each State to the
public Acts, Records, and Judicial Proceedings of every other
State. And the Congress may be general Laws prescribe the
Manner in which such Acts, Records and Proceedings shall be
proved, and the effect thereof.”

(1)
STATEMENT
This case presents two separate, recurring and indisputably
important questions of national importance, regarding conflicts in
federal/state procedural rights and the Eighth Circuits practice
of blatantly ignoring Supreme Court precedent; refusal to
recognize that State created rights, which would control in a state
court action between the same parties, must be recognized as
controlling under 28 U.S.C. 1652; the Full Faith and Credit
Clause of the United States Constitution, Article IV, Section 1,
and Acts of Congress, as provided by 28 U.S.C. Section 2072,
when the Federal Rules stands as an obstacle to achieving the
goal, that this Supreme Court has long held to be required to
meeting the Due Process standards of Notice of Complaint and
service of Summons and the rights of the indigent litigants to be
treated equally in the Courts of this Nation, of being allowed to be
heard and with the assistance of legal counsel to brief and argue
the issues presented for Appellate review, before a decision is
rendered.
A. Background
In 2002, Petitioner purchased a rural farm property that
straddles a branch of the Elm River, a federally designated
waterway, in the State of North Dakota. Petitioner’s property
consists of semi rolling grassland, and is used for the raising and
pasturing of livestock and contains the farm house and other
outbuildings. Petitioner is an organic farmer, utilizing non
chemical, non poisonous methods to control weeds etc.
A couple years later, the adjoining land owners, posted warning
signs upon their property, that Stated they were using poisons, that
were hazardous to livestock. The annual snowmelt and rains, runs
off this land onto Petitioner’s land and ultimately into the federal
waterway, the Elm River. Under the Federal Clean Water Act, the

(2)

Administrator of the Environmental Protection Agency, is
mandated to implement rules, regulations, practices and
procedures to protect the Federal Waterways from the
introduction of poisons and hazardous chemicals into the waters
of these United States. Scott Pruitt, the Administrator thereof, has
deliberately refused or failed to implement such rules and
regulations.
The adjoining landowner, was caught spraying poisonous
chemicals into Petitioner’s tree grove, during the evening hours,
darkness had arrived and without the use of lights on the
vehicle. Spraying on the East side of the property then crossing
the River and spraying on the West side. No other areas were
being sprayed. As a result of this criminal activity, over 200 of
Petitioners trees, some 70 to 80 foot tall, were killed. This is not a
remote incident, having killed other land owners trees in the past.
The local sheriff department has refused to investigate and the
local prosecuting attorney refuses to prosecute. State Statute
mandates that every person is bound, without contract to abstain
from injuring the person or property of another.
The following day, the State Department of Agriculture was
contacted, investigated but failed to take any form of corrective or
preventative action. State Statute prohibits the investigator from
the giving of evidence or findings in any legal actions.
The Federal Clean Water Act, mandates that the Administrator
of the Environmental Protection Agency implement rules,
regulations and procedures to carry out the Act. The
Administrator has failed to do so, apparently delegating this duty
upon the States. The State of North Dakota refuses to implement
rules, regulations or procedures to prevent the introduction of
poisons or hazardous chemicals into the Federal Waterways;
protect the interest of the organic farmers, and refuses to
prosecute the rich farmers or others who deliberately and

(3)

intentionally introduce poisons and hazardous chemicals into the
federal waterways. Water is deemed a liability in the State of
North Dakota, not an asset* statutorily creating water resource
districts to effect a more expeditious removal thereof, regardless
of the harm or adverse consequences to other landowners rights.
The adjoining landowner represented that he intends to poison
Petitioner’s livestock, representing that this is no longer livestock
country, and is suspected of poisoning some of Petitioner’s
livestock. He has knowingly and deliberately destroyed partition
fences separating the lands of Petitioners and himself. Resorting
to aerial spraying, flying low and directly over Petitioner’s
livestock terrorizing them and causing health issues from flying
directly over this elderly Petitioner’s farm home.
In 2017, the adjoining land owner filed a complaint with the
local water resource district alleging that Petitioner had installed
or constructed an obstruction to a natural drain or watercourse, the
water resource district, without any form of notice to Petitioner
and co-owners, investigated the allegation, determined art
obstruction existed and ordered its removal by May 1, 2018, or
they would remove and assess the costs to Petitioner. Petitioner
was provided no opportunity to present evidence or witnesses that
he had never performed any form of land restructuring or dirt
work, the land lays in its native state. State Statute provides no
requirements of Notice or Opportunity to be informed or even
heard, before the Water resource district acts or renders a
decision. The State Statutes provide virtually Chevron deference
with no limits on power and authority to the Water Resource
Districts and virtually no due process or equal protection of law
protections for the aggrieved land owners.
Conversely, the adjoining land owner has annually scrapped his
land in an attempt to effect a faster draining of water, creating a
dam-like illusion on his land. North Dakota statute defines what

(4)

an obstruction to a natural drain or watercourse consists of as: “a
defined ditch with banks and a continuous flow of water” of
which, the alleged obstruction did not comport with said
definition. Seasonal run-off from snow melt or rains, does not
constitute a natural drain or watercourse.
The State statute gives an aggrieved land owner thirty days, from
the date of the Water Board renders a decision, to appeal the
decision of the water board to the district court or request a
hearing before the board. Petitioner was not notified of this
decision until after the thirty day period had expired, and when
notified, did timely file a request for hearing. Legal counsel
for the water board represented that they had not “received” the
request within that thirty day time period, thus the appeal was
“untimely.”
Petitioner thereafter consulted approximately 20 different
lawyers, law firms in an attempt to take legal action. Unable to
obtain legal counsel, due to conflicts of interest, don’t handle that
types of cases, undertook to file a federal civil rights, etc action in
the U.S. District Court, District of Columbia, the proper district
against the Environmental Protection Agency, its Administrator,
as mandated by 28 U.S.C. 1392(e)(1), and the various State, local
officials and others involved in this ongoing deliberate, intentional
polluting and poisoning of the Petitioner’s organic farm and the
federal waterway. This practice is widespread throughout the
States, as more and more farmers are utilizing hazardous
chemicals and poisons and digging more and deeper ditches to
drain the surface runoff of rains and snowmelt, which ends up in
the federal waterways of this nation.
The failure to implement rules and regulations to carry out the
Federal Clean Water Act, occurred in Washington DC, by then
Administrator of the Environmental Protection Agency, Scott

(5)

Pruitt. Scott Pruitt has since left the position and Andrew Wheeler
has taken over.
The Signs, Poisons, chemicals in use, hazardous to livestock,
one within 300 foot of the alleged obstruction, remains in place
for all to see, to this present day, 15 plus years after installation.
B. Facts and Procedural background.
Petitioner, in compliance with State practice and procedures,
served each named defendant with a copy of Summons,
Complaint, Motion for Temporary Restraining Order and
Proposed Order, by Certified Mail, return receipt, restricted
delivery, third party service of process, simultaneously filing with
the Clerk of the U. S. District Court, on April 27, 2018.
None of the named Defendants complied with the Summons,
failing to file any form of responsive answer thereto, nor made
any form of appearance in these proceedings, are in default.
On July 18, 2018, the U.S. District Court, District of
Columbia, representing that all the acts or omissions occurred in
the State of North Dakota, thus it’s Court in Washington, DC,
was the wrong jurisdiction to file in, sua sponte immediately
transferred to the U. S. District Court for the District of North
Dakota. Contrary to precedent of this Supreme Court.
Petitioner challenged that action in a Mandamus Petition to the
Court of Appeals for the District of Columbia. Petitioner
requested the Court of Appeals order the district court to retrieve
the case from the District of North Dakota, as the acts or
omissions by the Environmental Protection Agency in failing to
implement rules and regulations to carry out the Federal Clean
Water Act, occurred in Washington DC, the only permitted
jurisdiction to proceed in pursuant to Federal Statute e.g., 28

(6)
U.S.C. 1392(e)(1). The District of Columbia Circuit Court of
Appeals, refused to grant petitioner relief.
Simultaneously, on July 18, 2018, the U. S. District Court, District
of North Dakota, entered an order denying the Motion for
Temporary Restraining Order, holding that Petitioner had not
properly served the Defendants, or given them notice of the
Complaint, and that Petitioner had failed to show cause why he
was entitled to the Temporary Restraining Order without
affording notice to the defendants. The District Court did not
inform, pro se what or how the service of process was defective.
Petitioner argued that the record proved otherwise, the district
court refused to alter its decision.
Petitioner challenged that action in a Mandamus Petition to the
Eighth Circuit Court of Appeals, requesting the Court to order the
District Court to vacate its Order and remand the case back to the
District of Columbia, where it was originally filed. Petitioner was
granted in forma pauperis status to pursue the mandamus action.
Approximately one year later, the U.S. District Court Judge,
assumed senior status, the case was assigned to the newly
appointed U. S. District Judge.
That Judge, in an Order, stated that Petitioner had performed
service of process upon defendants in compliance with the State
Rules, practices and procedures, those rules were inconsistent
with the Federal Rules, pointing out that, the State Rules permits
service of process before the filing with the clerk of the courts, the
Federal Rules permits service of process only after the filing with
tire clerk of the courts.
The District court thereafter dismissed the complaint without
prejudice, permitted Petitioner to appeal in forma pauperis.
Petitioner requested the assistance of legal counsel, which motion

(7)

was never acted upon. The Eighth Circuit, without permitting
Petitioner an opportunity to identify the issues, or submit a brief
of the issues, without any hearing, denied Petitioner relief, on
March 30, 2020. Petitioner timely requested an extension of time
to petition for rehearing and rehearing en banc, submitted a pro se
petition for rehearing and rehearing en banc, which was denied on
July 16, 2020. The Eighth Circuit Court does not recognize this
Court’s Corid-19 virus extension of filing deadlines. This Appeal
follows from that decision.
The Notice of Appeal to the Eighth Circuit Court of Appeals set
forth the following questions to be presented:
1. Does the Federal Rule, significantly affect the result of a
litigation for a Federal Court to disregard a law of a State that
would be controlling in an action upon the same claims by the
same parties in a State Court?;
2. Are the Federal Rules of Civil Procedure, contrary to or
inconsistent with the Rules Enabling Act [28 U.S.C. 1652],
Houston v. Lack. 487 U. S. 266 (1988); Mullane v. Central
Hanover Rank. 339 U. S. 306, 320 (1950), depriving Plaintiffs of
State created rights and privileges contrary to the Erie Railroad
Co. v. Tompkins. 304 U. S. 64 (1938) doctrine?;
3. Does the Fed. R. Civ. Pro. Rules 3 and 4 sub silento, overrule
the aforementioned Supreme Court decisions, depriving Plaintiffs
of substantive state created rights and privileges and violate
the Full Faith and Credit Clause of the U.S. Constitution, Article
IV, Section 1?
The federal district court granted Petitioner in forma pauperis
status to appeal to the Eighth Circuit, as provided by 28 U.S.C.
1915, failed to act on Petitioner’s request for the appointment
of legal counsel. The Eighth Circuit, contraiy to the dictates of

(8)
Coppedge v. United States. 369 U.S. 438 (1962) did not appoint
appellate counsel; did not permit Petitioner the opportunity to
identify the issues and did not permit any form of briefing, prior to
rendering a decision.
A compelling reason to grant relief is that this amounts to the
Eighth Circuit Court totally ignoring this Courts precedent, by and
through the denial of meaningful access to the Courts by it’s
discriminating against the class of indigent pro se appellants,
denying them of their First Amendments rights and the right of
due process and equal protection of law, the right to identify the
issues; right be heard on the issues before a decision; and by and
through the use of its Rule 47A(a) procedures to dispose of pro se
indigent appeals, contrary to this Court’s precedent. The Petition
for Rehearing, Rehearing En Banc, raised this issue also. Without
any form of ruling or Argument on the issues, die Eighth Circuit
denied the Petition on July 16, 2020.
This Court recognized the impact of the Corid-19 virus and
granted an automatic extension of time to petition this Court for
relief. This Court should have mandated that all the lower courts
subscribe to the same standard. The Eighth Circuit clearly denied
the Pro Se indigent an extension of time to Petition for Rehearing,
even though, it knew that the Court houses were closed to the
general public; Schools, Colleges and Universities and other
public libraries, that may have law libraries were closed to the
public and it knows or should have known, that not all people
have computer/intemet access to do legal research and thus do not
have the ability to meaningful access to the law to meet the short
time frame of fourteen (14) days to petition for Rehearing and or
Rehearing En Banc. A additional reason this Court should grant
this Petition for Certiorari, is to re-enforce the right to access of
the courts, in all courts of this nation, is to mandate that all courts
must recognize the abilities of the people and the circumstances
that surrounds them in their ability to comply with court deadlines

(9)
and order the granting of exceptional extensions of time on eveiy
case, not just those to this Supreme Court, so that the people have
meaningful access to the courts, not just perfunctory represent­
ation thereto. Cf Weeks v. North Dakota Workforce Safety &
Ins. Fund. 2011 ND 188, 803 N.W. 2d 601 (recognizing that not
all litigants have equal access to resources)(J. Crothers,
concurring).
ARGUMENT
This Court has held since Erie Railroad v. Tompkins. 304 U. S.
64, state law governs substantive matters; Federal courts are not
entitled to create their own common law for issues that properly
fall within state law... Applying state substantive law would lead
to more predictable outcomes for litigants and greater efficiency
for courts....” Id.
Congress used the word “shair in Sec. 1652 —State law shall be
the rule of decisions; in Sec. 2072(b) -court rules shall not
abridge, modify or enlarge any substantive right. ‘Shall’ denotes
the law is mandatory. Obeying the law is not ‘discretional’.
28 USC 1652 ‘mandates’, and this Court said, “the federal court
, enforcing a state-created right, in a diversity case is, as we said in
Guaranty Trust Co. v. York. 326 U. S. 99, 108, in substance is
“only another court of the State.” The federal court therefore may
not “substantially affect the enforcement of the right as given by
the State.” Bernhard v. Polveraphic Co. of America. 350 U. S.
198,203 (1956). Since the federal courts are just another state
court, the federal judge’s are bound to ascribe to the Rules of
Decision, practices and procedures authorized by the State’s
highest Courts.
Here the State’s practices, and laws should have prevailed in
the service of process and filing of a civil action, pursuant to 28

:
!

(10)

U.S.C. 1652, that conflicts with the Federal Rules of Civil
Procedure, when the Federal Rules violate 28 U.S.C. 2072 and
the U. S. Supreme Court precedent.
The District Court, District of North Dakota ruled, upon the case
being sua sponte transferred from the District Court, District of
Columbia that Petitioner had not properly performed service
of process of the Summons and Complaint with A Motion for
Preliminary Restraining Order upon the named defendants. See
Appendix A, pp. 1-2
The record before the District Court clearly and conclusively
proved that the named Defendants had been properly served with
the Summons, Complaint and the Motion for Temporary
Restraining Order by Certified Mail, Restricted Delivery, Return
Receipt by a Third Party as provided and permitted under State
Law, practice and procedure. The record further proves that
the Clerk of the Courts was served with the same pleadings at the
same time, April 27,2018. See Appendix B, pp. 3-5
It wasn’t until the District Court Judge, took senior status, and a
new Judge was assigned to the case, that the new Judge identified
the alleged procedural issue. E.g. that the State laws, practices
and procedures, and the Rules of Civil Procedure, permitting the
service of process of the Summons and Complaint may take place
before the filing with the clerk of Courts, while the Federal Rules
only permit’s the service of process of Summons and Complaint
to take place after the filing with the Clerk of Courts. See Order,
Appendix C, pp. 6-8
IS THIS A “LIMITATION THAT QUALIFIES A RIGHT SO
THAT IT BECOMES A PART OF THE SUBSTANTIVE
LAW RATHER THAN PROCEDURAL??
Raising a number of Constitutional and Statutory questions.

(17)
Under North Dakota’s mandatory laws, there is no discretion for
the Court to find a waiver of the right to counsel, as that would
imply the usage of the word “or” instead of “and” thus hybrid
representation is mandatory, clearly distinguishable from Faretta.
In 1971, this Court did grant James Blumstein the right to
represent himself before the Court. Mr. Blumstein argued that the
one year residency requirement for voter registration in
Tennessee, was unconstitutional, which mandated a one year
residency before anyone was permitted to register to vote.
Blumstein won his case on a 6-1 decision. Dunn v. Blumstein. 405
U. S. 330 (1972).
In Haines v. Kemer, 404 U.S. 519 (1972) the Court merely held
that the pro se complaint be held to less stringent standards than
formal pleadings drafted by lawyers, yet failed to establish any
meaningful “standards” by which the lower courts were to follow.
The State Court of Ohio in 2006 under Chief Justice Thomas J.
Moyer announced the appointment of a task force to recommend
improvements to the programs assisting pro se and indigent
litigants, he noted, “Providing indigent representation at all levels
of the state court system has become a challenge.” The impetus
behind formation of the task force is the recognition that access to
justice is a fundamental right that is not being afforded to all
citizens, especially indigent and pro se litigants. The 52
recommendations of th[eir] report are based on one simple
premise: to fulfill its duty of “justice for all”, our legal system
must become “user friendly” to the pro se litigant and afford
timely access to effective legal counsel for indigent parties.
Yet, this U.S. Supreme Court’s 200 year history, provides no
meaningful standards for the lower courts to comply with, at best,
only confusing the issues, rather than defining a meaningful
standard. Cf Strickland v. Washington, 466 U. S. 668 (1984) a

(18)
cause mid prejudice standard, with United States v. Cronic. 466 U.
S. 648 (1984) a specific acts and omissions standard. Quite
obviously, a cause and prejudice standard, is more arbitrary and
less stringent or defined that the specific acts and omissions
standard. In Yarborough v. Gentry. 540 U. S. 1 (2003), when
addressing ineffective counsel claims, the court yet again
established a different standard of “objectively unreasonable.”
Deferring to the State Courts determination, and holding that the
right to effective assistance of counsel “is denied when a defense
attorney’s performance falls below an objective standard of
reasonableness.” Clearly overlooking the political bias(es) of the
State Court’s in their determination of what is objectively
reasonable, since what is “objectively reasonable” in one person’s
eyes may be totally unreasonable in another’s and the fact that, for
instance, in the State of North Dakota, the North Dakota Supreme
Court COULDN’T FIND A CONSTITUTIONAL VIOLATION
IF ITS LIFE DEPENDED ON IT. Cf. Koenig v. State of North
Dakota. 789 N. W. 2d 731 (N.D. 2010) (summary dismissal of
appeal) with Koenig v. North Dakota. No. 12-2260 (8th Cir. 2014)
( holding violation of right to legal counsel on appeal). The state
district court judge, was also a sex offender. Cf. In re Wickham
Corwin. N.D. S. Ct. No. 20130328 (Decided March 14, 2014)
with Concerned Women of America, Legislative Action
Committee reporting that “Judge Corwin Cannot be Trusted”
(Revealing his desire to legislate from the bench). Why would a
Federal Court even consider or be mandated to defer to the
judgment of a State sex offender judge-his findings of fact or
conclusions of law—since his judgment is clouded by his own
criminal actions, intents and objectives?
This Court’s DISCRIMINATION practice against the indigent is
further evident and documented in comparing its decisions in
Powell v. Alabama. 287 U.S. 45 (1932) and United States v.
Gonzales-Lopez. 548 U. S. 140 (2006). The Powell Court held

(19)
that the right to legal counsel existed under Article in of the U. S.
Constitution, the First, Fifth, Sixth and Fourteenth Amendments.
Only the Sixth Amendment, specifically refers to “criminal”
defendants, the others, read in context with other protected rights,
applies to the civil context as well.
Under the First Amendment, the people have a number of
Constitutional rights/safeguards. The right to petition; [right to
petition, includes the right to be heard, fairly and impartially] the
right to freedom of speech; the right to freedom of choice; the
right to freedom of association; the right to freedom of the press,
in addition to numerous other rights.
The Court specifically reasoned that the right to be represented by
a lawyer was fundamental to a fair trial, if the defendant cannot
afford a lawyer, the court must appoint one. Id.
Conversely, in Gonzales-Lopez. the Court held that the
erroneous deprivation of a defendant’s attorney of choice entitles
him to a reversal of his conviction under the Sixth Amendment.
Clearly implying that only the affluent had the right to freedom of
choice of legal counsel. Quite obviously this right flows from the
First Amendment, the right of freedom of choice and the right
to freedom of association, in addition to the right to meaningful
and effective access to the courts, the right to petition. Yet, no
place in the US Constitution does it even imply that the affluent
people have greater rights than the indigent people. This leads to
the unmistakable conclusion that this UNITED STATE
SUPREME COURT DISCRIMINATES AGAINST THE
INDIGENT PEOPLE. Contained in that group is obviously the
PROSE PERSON.
It may well be past time to term limits for all, including the
judiciary, all branches, federal and state; to constitutionally
mandate that [all] the Courts be equally divided -politically-

(20)

mandated to render one brief unanimous decision on all cases and
issues presented for review; all prior inconsistent decisions being
overruled, by vote of the people and all future unanimous
decisions being subjected to being overturned by a simple
majority vote of the people; and furthermore, the people should
decide and vote whether any person may sit the bench after fully
being investigated and qualified. In addition, all citizens shall
have the right to legal counsel of their choice, those whom cannot
afford shall have the assistance of the clerk of courts to obtain
legal counsel of choice, in all legal proceedings, civil, criminal or
others; prosecuting or defending and no evidence shall be used
against any person in any court, however obtained, if they did not
have legal counsel of choice before the taking of such evidence.
This is the true meaning of the Bill of Rights that “All men are
created Equal” and “a government by the people, for the people.”
CONCLUSION
The record proves the district courts applied the federal rules
contrary to the dictates of federal statute, depriving plaintiffs of
their substantive due process procedural rights, granted under
State laws, practices and procedures, which were consistent with
the federal statutes, 28 U.S.C. 1652 and 28 U.S.C. 2072(b)
warranting a reversal and remand.
The Eighth Circuit clearly discriminates against the pro se
indigent party by totally ignoring and disregarding the precedent
of this United States Supreme Court, mandating that the pro se
indigent party is equally entitled to brief the issues and be heard
with the assistance of legal counsel, if qualified for the
appointment thereto, in essence, thumbing its nose at this Supreme
Court’s mandates, warranting a remand with stem directives.

(21)
Relief Requested
This Court should grant this Motion for Certiorari and reverse the
lower court decisions.
Respectfully Submitted this 30 day of November, 2020.

La Verne Koenig
15520 Hwy 200A SE
Blanchard, ND 58009-9326
(701) 430-0096
Email: olecowbov7053@gmail.com

